Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grant to the City of Benavides, Texas

Report No. GR-80-04-002


December 2003
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the grant awarded by the Office of Community Oriented Policing Services (COPS) to the City of Benavides.  The purpose of the grant is to start up a municipal police department and enhance community policing.  The City was awarded a total of $114,558 to hire two new police officers.
We reviewed the City's compliance with six essential grant conditions and found weaknesses in two of the areas tested:  local match requirements and reimbursements.  As a result of the deficiencies identified below, we question $603 in grant funds received and recommend an additional $20,816 be put to better use.1

The City did not have a method for documenting its local match.


The City submitted a grant application that overstated salary and fringe benefits by $20,816.


The City did not have a financial record keeping system that ensured time and attendance records were on file for each pay period that the grant-funded officers were employed or that enabled grant-funded officers' salary and fringe benefit costs to be identified within a bank account or with transfers to other accounts.


The City charged unsupported costs of $603 to the grant.


The City did not decrease the federal share each year as required by the grant.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.